No. 19-

 

 

In THE
Supreme Court of the United States

JEFFREY TODD PALUMBO,

Petitioner,
Vv.

STATE OF CONNECTICUT,
Respondent.

On Petition for a Writ of Certiorari to the
Connecticut Appellate Court

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,035 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 12, 2020.

 

Wilson-Epes Printing Co., Inc.
